                                                                         REPORT TO THE EMPLOYMENT


U.S. Department of Labor
                                                                         AND TRAINING ADMINISTRATION




                           Office of Inspector General—Office of Audit




                                                                         RECOVERY ACT: OUTCOMES FROM WIA
                                                                         TRAINING AND SERVICES TO ADULTS AND
                                                                         DISLOCATED WORKERS




                                                                         This audit was performed by Harper, Rains, Knight & Company P.A., CPAs,
                                                                         under contract to the Office of Inspector General, and by acceptance, it
                                                                         becomes a report of the Office of Inspector General.



                                                                                           _____________________________
                                                                                           Assistant Inspector General for Audit




                                                                                                         Date Issued:        September 30, 2014
                                                                                                      Report Number:           18-14-002-03-390
U.S. Department of Labor                                     September 2014
Office of Inspector General
Office of Audit                                              RECOVERY ACT: OUTCOMES FROM WIA
                                                             TRAINING AND SERVICES TO ADULTS AND
                                                             DISLOCATED WORKERS
BRIEFLY…                                                     WHAT OIG FOUND
Highlights of report number: 18-14-002-03-390, issued
to the Assistant Secretary for Employment and                Our audit found the number of participants served by
Training.                                                    the WIA Adult and Dislocated Worker programs
                                                             increased proportionally to the increase in funding
WHY READ THE REPORT                                          from the Recovery Act. As allowed under the
                                                             Recovery Act, ETA did not require states to report
The American Recovery and Reinvestment Act                   Recovery Act participation separately; therefore, we
(Recovery Act) provided the Department of Labor’s            were not able to determine the percentage increase in
Employment and Training Administration (ETA) with            the use of Recovery Act funds for direct training and
an additional $500 million in Workforce Investment Act       supportive services.
(WIA) Adult program and $1.25 billion in WIA
Dislocated Worker program formula funds to award to          We found the number of participants served did not
states. States were to use the funds to increase             return to pre-Recovery Act levels, but remained
capacity and provide additional economic support and         constant at about seven million for the Dislocated
services to the workforce system. The Recovery Act           Workers program and above one million for the Adult
did not change the nature of the WIA Adult and               program. While participation has remained at the
Dislocated Worker programs; supplemental funding             higher Recovery Act levels, the available funding to
could only be used for authorized WIA activities.            spend on participants in the program has returned to
                                                             pre-Recovery Act levels. With the number of
Within the Adult program, states were to use funds to        participants served leveling-off at or near Recovery
provide the necessary services to substantially              Act levels coupled with funding levels dropping back
increase the number of adults entering or re-entering        to pre-Recovery Act levels, the spending per
the job market; within the Dislocated Worker program,        participant served in both the Adult and Dislocated
states were to use funds to support workers’ re-entry        Workers programs has reduced dramatically.
into the job market.
                                                             Currently, no published studies exist that identify how
The Recovery Act emphasized in the Adult program a           WIA Adult and Dislocated Worker funds, in times of
priority use of funds for services to recipients of public   limited funds, could best be used to affect the largest
assistance and other low-income individuals, as set          impact on the entered employment rate. However, the
forth in 134(d)(4)(E) of the WIA.                            ongoing Gold Standard Evaluation ETA initiated in
                                                             2008 is designed to determine how intensive services
                                                             and training impact participants’ employment rates,
WHY OIG CONDUCTED THE AUDIT
                                                             earnings, and other related outcomes.
The audit was conducted to answer the following              We found state and local board officials were aware of
questions:                                                   the Recovery Act priority of service provisions and the
                                                             priority of service language was included in all grant
(1) To what extent did states use additional WIA Adult       documents, state plans, and state standard operating
    and WIA Dislocated Worker formula funds to               procedures we audited. No significant changes were
    increase the percentage of recipients they served        required to the way assistance recipients and
    with direct training and supportive services?            low-income individuals were enrolled as Recovery Act
                                                             requirements were the same as those already in place
(2) To what extent did states give priority of service to    under WIA.
    assistance recipients and low-income persons in
    the WIA Adult program, as required by the
                                                             WHAT OIG RECOMMENDED
    Recovery Act?
                                                             ETA officials stated they anticipate using the Gold
READ THE FULL REPORT                                         Standard Evaluation results to inform ETA of the best
                                                             use of available funds to achieve the largest impact on
To view the report, go to:                                   participant outcomes. Therefore, our audit report does
http:www.oig.dol.gov/public/reports/oa/2014/18-14-           not include a recommendation to ETA. ETA
002-03-390.pdf                                               management notified us they did not have any
                                                             comments on the draft report.
             Prepared by Harper, Rains, Knight, & Company, P.A.
      For U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Recovery Act WIA
                                   Report No. 18-14-002-03-390
                                                         Prepared by Harper, Rains, Knight, & Company, P.A.
                                                  For U. S. Department of Labor – Office of Inspector General


Table of Contents

Results ........................................................................................................................... 4

Objective 1 — To what extent did states use additional WIA adult and WIA
Dislocated Worker formula funds to increase the percentage of recipients they
served with direct training and supportive services?................................................ 4

Objective 2 — To what extent did states give priority of service to assistance
recipients and low-income persons in the WIA Adult program, as required by the
Recovery Act? ............................................................................................................... 8

Exhibits
          Exhibit 1: Examples of State and Local Workforce Investment Board
             Responses Showing Impact of Recovery Act funds on Participation. ........... 13
          Exhibit 2: Responses to Application of the Provision to Give Priority of
             Service .......................................................................................................... 15

Appendices
          Appendix A Objectives, Scope, Methodology, and Criteria ................................ 19
          Appendix B Acronyms and Abbreviations........................................................... 21




                                                                                                       Recovery Act WIA
                                                                                            Report No. 18-14-002-03-390
             Prepared by Harper, Rains, Knight, & Company, P.A.
      For U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Recovery Act WIA
                                   Report No. 18-14-002-03-390
                                        Prepared by Harper, Rains, Knight, & Company, P.A.
                                 For U. S. Department of Labor – Office of Inspector General




September 30, 2014


Portia Wu
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


The American Recovery and Reinvestment Act (Recovery Act), signed into law on
February 17, 2009, was intended to preserve and create jobs, promote the nation’s
economic recovery, and to assist those most impacted by the recession. The Recovery
Act provided the Department of Labor’s Employment and Training Administration (ETA)
with an additional $500 million in Workforce Investment Act (WIA) Adult program and
$1.25 billion in WIA Dislocated Worker program formula funds to award to states. These
funds were to be used to increase capacity and provide additional economic support
and services to the workforce system. Within the Adult program, funds were to provide
the necessary services to substantially increase the number of adults entering or
re-entering the job market. Within the Dislocated Worker program, funds were to
support workers’ re-entry into the job market. This was to be done through the targeted
use of funds, coordinating and aligning with other federal and state resources,
leveraging and supporting registered apprenticeship programs, and through supportive
services and needs-related payments.

The Recovery Act emphasized in the Adult program a priority use of funds for services
to recipients of public assistance and other low-income individuals, as set forth in
134(d)(4)(E) of the WIA Act. The Recovery Act made no such provisions for grants to
States for dislocated worker employment and training activities. The Recovery Act
further required states to ensure that supportive services and needs-related payments,
as set forth in 134(e)(2) and (3) of the WIA Act, were made available to support the
employment and training needs in both the Adult and Dislocated Worker populations.




                                                                         Recovery Act WIA
                                            1                 Report No. 18-14-002-03-390
                                                Prepared by Harper, Rains, Knight, & Company, P.A.
                                         For U. S. Department of Labor – Office of Inspector General

We conducted a performance audit of the program’s WIA Adult and Dislocated Worker
formula funds provided by the Recovery Act. The audit objectives were to determine:

    1. To what extent did states use additional WIA Adult and WIA Dislocated
       Worker formula funds to increase the percentage of recipients they served
       with direct training and supportive services?

    2. To what extent did states give priority of service to assistance recipients
        and low-income persons in the WIA Adult program, as required by the
        Recovery Act?

Our audit found the number of participants served, as identified by the states, in the
WIA Adult and Dislocated Worker programs increased proportionally to the increase in
funding from the Recovery Act. However, we also found per participant funding
decreased from a pre-Recovery Act average of $3,300 to a post-Recovery Act average
of $2,200 for the WIA Dislocated Workers program and a pre-Recovery Act average of
$1,000 to a post-Recovery Act average of $400 for the WIA Adult program, as the
number of participants remained at the higher Recovery Act levels. We also found
states made no changes to their priority of services for assistance recipients and
low-income participants, as this was an existing program requirement. Further, state
data showed an increase of 58 percent in the number of such participants served.

Background

Under Title VIII of the Recovery Act, Congress provided ETA with an additional
$500 million in WIA Adult program and $1.25 billion in WIA Dislocated Worker program
formula funds to award to states.

The Recovery Act did not change the nature of the WIA Adult and Dislocated Worker
programs; supplemental funding could only be used for authorized WIA activities. These
activities were described in Training and Employment Guidance Letters (TEGL). The
TEGLs provide guidance using and reporting on the supplemental Recovery Act funds.

ETA Recovery Act Implementation Guidance on WIA Adult and WIA Dislocated Worker
Activities

The Recovery Act funds had to be used to supplement annual WIA appropriations and
could only be used for activities that were in addition to those that would otherwise be
available in the local area in the absence of such funds (WIA sec. 195(2)). The
recipients were instructed to spend the Recovery Act funds concurrently with other WIA
funding, and were instructed not to use the funds to replace state or local funding
currently dedicated to workforce development and summer jobs. 1


1
 TEGL 14-08, Guidance for Implementation of the Workforce Investment Act and Wagner-Peyser Act Funding in the
American Recovery and Reinvestment Act of 2009 and State Planning Requirement for the Program Year 2009

                                                                                       Recovery Act WIA
                                                      2                     Report No. 18-14-002-03-390
                                               Prepared by Harper, Rains, Knight, & Company, P.A.
                                        For U. S. Department of Labor – Office of Inspector General

ETA determined it was not possible for states and local service providers to distinguish
"Recovery Act" participants from regular formula fund participants as funds were spent
concurrently and the characteristics and eligibility requirements were equivalent for WIA
Adult and WIA Dislocated Worker program participants served with Recovery Act and/or
WIA formula funds. 2 Therefore, all reported participant numbers and spending amounts
include both formula WIA funds and the supplementary Recovery Act funds.

Due to the inability to distinguish Recovery Act participants, ETA instructed the states to
continue submitting required quarterly and annual reports, and include participants
whose services were financed with regular WIA formula funds and/or Recovery Act
funds. ETA required states to report counts of people whose services were financed by
either the regular formula funds and/or the Recovery Act funds in these supplemental
reports. Furthermore, ETA designed the reporting requirements to keep the additional
reporting burden to a minimum, while ensuring ETA collected the necessary data to
report timely information to stakeholders about the use of Recovery Act funds. 3 These
instructions were supported by OMB’s guidance on pre-existing data collection
requirements which instructed agencies not to change standard reporting for awards,
unless there was a legal or other compelling justification. 4

ETA Recovery Act Priority of Service Guidance for WIA Adult Program

TEGL 14-08 provided specific information to states regarding how to spend additional
WIA funds received under the Recovery Act. Attachment A of TEGL 14-08 instructed
states what to include in their modified State Plans. For example, ETA required states to
describe their strategies to “effectively implement the Recovery Act priority of services
for low-income adults and recipients of public assistance under the WIA Adult Program.”

Previously, auditors under contract with OIG reviewed state and local plans regarding
supplemental WIA Adult formula funds and found all six state plans and four of the six
local plans audited addressed Recovery Act priority of service requirements (see
Recovery Act: Actions Needed to Better Ensure Congressional Intent Can Be Met in the
Workforce Investment Act Adult and Dislocated Worker Programs (OIG Report
No. 18-10-004-03-390, March 31, 2010). In its written response to OIG’s report, ETA
stated it recognized some local areas could benefit from technical assistance and
information in implementing the priority of service for low-income persons in the WIA
Adult program. ETA said it would provide such assistance, as needed.




2
  http://www.doleta.gov/recovery/MonthlyReports/201004.cfm
3
  TEGL 24-08, Workforce Investment Act and Wagner-Peyser Act Performance Accountability Reporting for the
American Recovery and Reinvestment Act of 2009
4
  OMB Memorandum 09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009, Section 2

                                                                                     Recovery Act WIA
                                                     3                    Report No. 18-14-002-03-390
                                                  Prepared by Harper, Rains, Knight, & Company, P.A.
                                           For U. S. Department of Labor – Office of Inspector General

Results

Objective 1 — To what extent did states use additional WIA adult and WIA
              Dislocated Worker formula funds to increase the percentage of
              recipients they served with direct training and supportive
              services?

ETA did not require states to report Recovery Act participation separately; therefore, we
were not able to determine the percent increase in the use of Recovery Act funds for
direct training and supportive services. However, using Program-wide data obtained
from ETA’s WIA State Annual Reports and Summaries for Program Year (PY) 2006
through PY 2012, 5 we can see the overall WIA Adult participation increased by
34 percent between Program Year 6 2008 and 2009 and by 2.5 percent between
Program Year 2009 and 2010. Overall WIA Dislocated Worker participation increased
by 72.5 percent between Program Year 2008 and 2009 and by 11 percent between
Program Year 2009 and 2010. Program years 2008 through 2010 were used in these
calculations as they were impacted by the Recovery Act funds. Furthermore, as
depicted in Table 1, in PYs 2011 and 2012 the number of participants served did not
return to pre-Recovery Act levels, but remained constant at about 7 million for
Dislocated Workers program and above 1 million for the Adult program.

Table 1: Participants Served by Program Year from 2006 through 2012
    8,000,000
    7,000,000
    6,000,000
    5,000,000                                                                     Participants Served–WIA Adults
    4,000,000
    3,000,000                                                                     Participants Served–WIA
                                                                                  Dislocated Workers
    2,000,000
    1,000,000
           -
                2006   2007    2008     2009    2010    2011    2012
                                                                             7
Source: DOL ETA WIA National Summary of Annual Performance Data

While participation has remained at the higher Recovery Act levels, the available
funding to spend on participants in the program has returned to pre-Recovery Act
levels, as depicted in Table 2.

5
  Total participants served data obtained from Table M, column F (Total Participants Served – WIA Adults) and
column H (Total Participants Served WIA DW). Total federal spending data obtained from Table N, column B (Total
Federal Spending – Local Adults (N1)) and column C (Total Federal Spending – Local DW (N2)).
6
  Program Years (PY) are different than Fiscal Years, in that Program Years run from 7/1 through 6/30. The Recovery
Act was passed in PY 08 and funding was available into PY 10.
7
  DOL ETA WIA State Annual Reports & Summaries by Program Year:
http://www.doleta.gov/performance/results/#wiarankings

                                                                                            Recovery Act WIA
                                                        4                        Report No. 18-14-002-03-390
                                                     Prepared by Harper, Rains, Knight, & Company, P.A.
                                              For U. S. Department of Labor – Office of Inspector General


Table 2: Total Spending for WIA Adult and Dislocated Worker Programs, Program Years 2006-2012
    $1,200,000,000

    $1,000,000,000

     $800,000,000
                                                                                      Federal Spending-WIA Adults
     $600,000,000
                                                                                      Federal Spending-WIA
     $400,000,000                                                                     Dislocated Workers

     $200,000,000

                 $-
                         2006   2007   2008   2009     2010     2011    2012
                                                                               8
Source: DOL ETA WIA National Summary of Annual Performance Data

The result of the number of participants served leveling off at or near Recovery Act
levels coupled with funding levels dropping back to pre-Recovery Act levels has
dramatically reduced the spending per participant served in both the Adult and
Dislocated Workers programs, as depicted in Table 3.

Table 3: Total Spending per Participant Served by Program Year from 2006 through 2012
     $4,500.00
     $4,000.00
     $3,500.00
     $3,000.00
                                                                                    Cost per Participant-WIA Adults
     $2,500.00
     $2,000.00
                                                                                    Cost per Participant-WIA
     $1,500.00                                                                      Dislocated Workers
     $1,000.00
      $500.00
           $-
                      2006   2007   2008   2009      2010     2011     2012
                                                                               9
Source: DOL ETA WIA National Summary of Annual Performance Data

Our results mirrored the ETA supported study, Implementation of the American
Recovery and Reinvestment Act: Workforce Development and Unemployment

8
  DOL ETA WIA State Annual Reports & Summaries by Program Year:
http://www.doleta.gov/performance/results/#wiarankings
9
  DOL ETA WIA State Annual Reports & Summaries by Program Year:
http://www.doleta.gov/performance/results/#wiarankings

                                                                                              Recovery Act WIA
                                                            5                      Report No. 18-14-002-03-390
                                                       Prepared by Harper, Rains, Knight, & Company, P.A.
                                                For U. S. Department of Labor – Office of Inspector General

Insurance Provisions, Final Report, issued October of 2012, 10 produced by the National
Association of State Workforce Agencies (NASWA), which found the “Recovery Act
funds that remained for the second year were not enough to offset the continued
increase in the number of participants in each program, and subsequently expenditures
per participant fell in the second year of the Recovery Act funding period.” ETA has
identified this same trend in their budget justifications for FY 2014 11 and FY 2015. 12

Higher participation combined with limited funds strained the system as a whole. While
the FY 2014 and FY 2015 budget justifications alluded to the issue, we did not find any
published studies, internal nor external, which identified how WIA Adult and Dislocated
Worker funds, in times of limited funds, could best be used to effect the largest impact
on the entered employment rate. However, in 2008, ETA initiated a national impact
evaluation to address this question. This evaluation of WIA Adult and Dislocated Worker
formula funded programs, called the Gold Standard Evaluation, is designed to
determine how intensive services and training provided using WIA Adult and Dislocated
Worker funds impact participants’ employment rates, earnings, and other related
outcomes. 13 The Gold Standard Evaluation will also measure how differences in
services and training implementation impact participants’ outcomes. Evaluators, under
contract to the Department, are gathering follow-up information over a 30-month period
from approximately 35,000 study participants. Results will be submitted to the
Department of Labor in the summer of 2017.

Grantees used Recovery Act funds for Direct Training and Supportive Services

Even though we could not determine an exact percent increase in the use of Recovery
Act funds for direct training and supportive services, as identified above, we did validate
that Recovery Act funds were used for direct training and supportive services. We
validated the use of Recovery Act funds by testing a sample of states and territories that
reported providing participants with direct training and supportive services funded either
partially or fully with Recovery Act supplemental WIA Adult and Dislocated Workers
program funds.

During the period covered by our review, the 8 sampled states (Alaska, Arizona, Illinois,
Maine, Nebraska, New Mexico, Vermont, and Washington) and territory (Puerto Rico),
received $71 million in Recovery Act WIA Adult funding and $152 million in Recovery
Act WIA Dislocated Worker funding. They reported to ETA serving, either partially or
fully, 43,865 participants with Recovery Act funds. Of these participants, we statistically
selected a sample of 490 participants.



10
   Excerpt can be found on pages 266-267 in the complete document:
http://wdr.doleta.gov/research/keyword.cfm?fuseaction=dsp_puListingDetails&pub_id=2523&mp=y&start=1&sort=7
11
   FY 2014 Congressional Budget Justification, Employment and Training Administration, Overview, pages ETA – 10
and ETA – 11. http://www.dol.gov/dol/budget/2014/PDF/CBJ-2014-V1-03.pdf
12
   FY 2015 Congressional Budget Justification, Employment and Training Administration, Overview, pages ETA – 17
and ETA – 18. http://www.dol.gov/dol/budget/2015/PDF/CBJ-2015-V1-03.pdf
13
     WIA Gold Standard Fact Sheet, March 2014

                                                                                        Recovery Act WIA
                                                           6                 Report No. 18-14-002-03-390
                                         Prepared by Harper, Rains, Knight, & Company, P.A.
                                  For U. S. Department of Labor – Office of Inspector General

We audited the 490 sample participant files for evidence of eligibility and direct training
or support services provided through Recovery Act funding either partially or fully. To
verify participants were eligible for either the WIA Adult or the Dislocated Worker
programs, we reviewed participant files for documentation related to the age,
citizenship, receipt of public assistance, selective service registration for males born
after January 1, 1960, and employment status. Specific documentation reviewed
included copies of driver licenses, social security cards, birth certificates, selective
service registration printouts, passports, and printouts from various public assistance
agencies. For participants in the Dislocated Worker program we also reviewed
documentation from previous employers to determine the reason for employment
dislocation. Usually documentation consisted of letters from employers stating an
individual had been laid off or terminated due to downsizing or facility closure. All 490
participants were determined eligible to participate in the WIA Adult and/or Dislocated
Worker programs.

We found the grantees either partially or fully charged the costs of training and services
provided to all 490 participants to Recovery Act funds. For the 490 participants tested,
the average amount spent using regular WIA formula funds and WIA Recovery Act
funds per participant receiving direct training was $4,204 in both the Adult and
Dislocated Worker programs. For both the Adult and Dislocated Worker programs, the
average amount spent per participant receiving support services was $1,161. Of the
490 participants, records in the participant files indicated that 299 (61 percent) of the
participants entered employment upon exiting the program, as compared to the Adult
and Dislocated Worker overall populations’ average entered employment rate of
59 percent from Program Years 2008 through 2010.

While in the field, we conducted interviews with state and local workforce boards.
Officials in every office indicated the supplemental Recovery Act funds allowed for
greater participation in the program and that the Recovery Act funds were administered
in the same fashion as the regular WIA program funds. Overall, the officials overseeing
the WIA Adult and Dislocated Worker programs saw an increase in number of
participants, which ultimately resulted in an increase in number of participants placed in
employment. These results are summarized by state in Exhibit 1.

The availability of the supplemental Recovery Act funds allowed the state workforce
systems to serve more of the Adult and Dislocated workers who were impacted by the
downturn in the United States economy. Our audit found the Adult and Dislocated
worker participants were eligible for the services provided and that funding was
provided in part or in whole by the Recovery Act. The Recovery Act participants in our
sample received funding and entered employment in line with the overall WIA Adult and
Dislocated worker programs per participant spending and entered employment rates.
The lingering impact of the Recovery Act and the downturn in the economy has been a
sustained participation rate that has not dropped to pre-Recovery Act levels. This
increased participation rate, coupled with pre-Recovery Act funding levels, has resulted
in fewer WIA funds being available on a per participant basis in the post-Recovery Act
program years.

                                                                           Recovery Act WIA
                                             7                  Report No. 18-14-002-03-390
                                                   Prepared by Harper, Rains, Knight, & Company, P.A.
                                            For U. S. Department of Labor – Office of Inspector General


Objective 2 — To what extent did states give priority of service to assistance
              recipients and low-income persons in the WIA Adult program, as
              required by the Recovery Act?

Although states did not separately track Recovery Act funded services, we found that
the percentage of assistance recipients and low-income persons increased from
15 percent to 21 percent 14 during the period during which Recovery Act funds were
received. We found state and local board officials were aware of the Recovery Act
priority of service provisions and the priority of service language was included in all
grant documents, state plans, and state standard operating procedures we audited. No
significant changes were required to the way the assistance recipients and low-income
individuals were enrolled as the Recovery Act eligibility requirements were the same as
those already in place under WIA.

For adult employment and training activities, including supportive services and
needs-related payments, the Recovery Act provided that a priority of use of these funds
shall be services for individuals receiving public assistance and other low-income
individuals. 15 The priority of service was addressed by ETA, who stated “ETA
encourages states and local areas to pay particular attention to these populations in the
development of implementation strategies for Recovery Act funds.” 16

We found the states reported certain characteristics of exiters, 17 including low-income
and public assistance characteristics. The state-reported data indicated an increase in
the percentage of low-income and public assistance recipients the states served 18 for
the program years subsequent to the enactment of the Recovery Act in 2009.




14
   The calculation is performed using Table II-2 from the WIASRD Data Book for Program Year 2012 prepared by the
Social Policy Research Associates (SPR) for the ETA. We divided the Total Low Income characteristic by the
Number of exiters for the Adult program. The period considered is PY 2008 to PY 2010.
15
   Workforce Investment Act Section 134(d)(4)(E)
16
   TEGL 14-08, Sections 6 and 10
17
   Exiters are defined as a participant that has not received any services funded by the program or a partner program
for 90 consecutive calendar days, has no gap in service, and is not scheduled for future services.
http://wdr.doleta.gov/directives/attach/TEGL17-05.pdf
18
   Data source is the WIASRD Data Book’s prepared by SPR for the ETA for PY 2008 through PY 2011.
http://www.doleta.gov/performance/results/#wiasrd_databook

                                                                                            Recovery Act WIA
                                                          8                      Report No. 18-14-002-03-390
                                               Prepared by Harper, Rains, Knight, & Company, P.A.
                                        For U. S. Department of Labor – Office of Inspector General

Table 4: Number of Adult Exiters, by Low Income and Public Assistance Characteristics by
Program Year from 2008 through 2010
                                                            PY 2008     PY 2009      PY 2010
 Number of exiters                                          1,040,676 1,187,450 1,252,411
 Characteristics of Exiters who Received Intensive or
 Training Services
 Low income                                                   153,126    242,098      260,160
 Public assistance recipient                                   65,206    111,948      128,529
     TANF recipient                                            12,435     17,043       18,235
     Other public assistance                                   62,720    109,084      124,934
                                                               19
Source: WIASRD Data Book for Program Year 2012 prepared by SPR

As noted previously, the reporting does not distinguish exiters funded by the Recovery
Act from those funded with WIA funds and the data is unaudited.

State-level workforce agencies passed the Recovery Act requirements to the local
workforce investment boards (LWIBs) through language in the grant documents, plans,
and standard operating procedures that we audited. All sampled LWIBs were aware of
the emphasis on the priority of service provision in the Recovery Act, but indicated they
did not need to change the way in which they applied the priority of service provisions.
Responses from the audited state and local board officials are summarized by state in
Exhibit 2.

The results we noted were mirrored in the Implementation of the American Recovery
and Reinvestment Act: Workforce Development and Unemployment Insurance
Provisions, Final Report, issued October of 2012, 20 which stated:

        The Recovery Act did not usher in much change with regard to providing
        services for low-income individuals because there had always been an
        emphasis on providing priority of service for low-income individuals within
        the WIA Adult program.

Additionally the report stated:

        State workforce agencies viewed the Recovery Act as not leading to many
        changes in policies or practices at the state or local workforce levels
        related to serving low-income individuals – WIA Adult programs already
        were targeted to and serving substantial numbers of low-income
        individuals. 21


19
   Data source is the WIASRD Data Book’s prepared by SPR for the ETA for PY 2012, Table II-2:
http://www.doleta.gov/performance/results/pdf/PY2012WIASRDDataBook.pdf
20
   Excerpt can be found on page 63 in the complete document:
http://wdr.doleta.gov/research/keyword.cfm?fuseaction=dsp_puListingDetails&pub_id=2523&mp=y&start=1&sort=7
21
   Excerpt can be found on page 65 in the complete document:
http://wdr.doleta.gov/research/keyword.cfm?fuseaction=dsp_puListingDetails&pub_id=2523&mp=y&start=1&sort=7

                                                                                     Recovery Act WIA
                                                     9                    Report No. 18-14-002-03-390
                                         Prepared by Harper, Rains, Knight, & Company, P.A.
                                  For U. S. Department of Labor – Office of Inspector General

The States and local boards evidenced no substantial change in the application of the
Recovery Act WIA Adult priority of service requirement, due primarily to the overall WIA
Adult population consisting of public assistance and low-income individuals. Our audit
found all of the sampled states and local boards were aware of and included the priority
of service provision in their grant documents, state plans, and standard operating
procedures.

Conclusion

In summary, currently, no published studies exist which identify how WIA Adult and
Dislocated Worker funds, in times of limited funds, could best be used to effect the
largest impact on the entered employment rate. However, the Gold Standard Evaluation
ETA initiated in 2008 is designed to determine how intensive services and training
impact participants’ employment rates, earnings and other related outcomes. ETA
officials stated they planned to use the results of the Gold Standard Evaluation to
develop its budget requests to Congress; to assist with the transition from WIA to the
Workforce Innovation Opportunity Act (WIOA), the law which will replace WIA; and to
determine how to direct discretionary funds to services with the greatest cost benefit.
ETA officials further stated they anticipate using the Gold Standard Evaluation results to
inform ETA of the best use of available funds to achieve the largest impact on
participant outcomes. Therefore, our audit report does not include a recommendation to
ETA. ETA management notified us they did not have any comments on the draft report.

We appreciate the cooperation and courtesies ETA personnel extended to Harper,
Rains, Knight & Company, P.A. during this audit.




Harper, Rains, Knight & Company, P.A.




                                                                          Recovery Act WIA
                                            10                 Report No. 18-14-002-03-390
                  Prepared by Harper, Rains, Knight, & Company, P.A.
           For U. S. Department of Labor – Office of Inspector General




Exhibits




                                                   Recovery Act WIA
                     11                 Report No. 18-14-002-03-390
             Prepared by Harper, Rains, Knight, & Company, P.A.
      For U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Recovery Act WIA
                12                 Report No. 18-14-002-03-390
                                        Prepared by Harper, Rains, Knight, & Company, P.A.
                                 For U. S. Department of Labor – Office of Inspector General

Exhibit 1: Examples of State and Local Workforce Investment Board Responses
Showing Impact of Recovery Act funds on Participation.
State         Responses to impact of Recovery Act funds on participation
Alaska        Used same performance measures; set up system codes to track participants that
              were partially or wholly Recovery Act funded; co-enrolled many participants to
              ensure funding was available for continued training beyond Recovery Act funds
              availability; and noted a large increase in number of participants from 2009 to 2010,
              steep decline after Recovery Act funds ended.
Arizona       Reported a greater number of participation under the period in which Recovery Act
              funds were available; targeted high unemployment rate counties; did not track
              Recovery Act results separately from normal formula funds; increase in participation
              mirrored increase in available funds; and handled increase in participation rate above
              normal levels as a result of the Recovery Act funds.
Illinois      No additional nor formal analysis of the Recovery Act funds was done versus the
              standard formula funds as all funds were administered in the same fashion;
              Recovery Act funds allowed for an increase in the number of participants who could
              take advantage of the services offered by the programs; served participants that
              otherwise would have been on the waiting list.
Maine         Tracked new versus prior participants and Recovery Act versus regular WIA
              participants; revised policies; increased caps for service programs to serve more
              participants; doubled enrollment, provided opportunities for longer training programs
              due to Recovery Act funds; allowed more participants to be served because of
              Recovery Act funds; and noted increases in one local board for both enrollment and
              placement.
Nebraska      Did not formally measure the impact, but noted participation increased.
New Mexico    Increase in Recovery Act funds lead to increases in participation and therefore
              exiters. Identified serving 50 percent more participants across all funding streams;
              provided opportunity to do more because of flexibility of Recovery Act funds;
              identified larger WIA issues because of increased monitoring of Recovery Act funds;
              restored funding levels back to what the grantee considered “whole” with the addition
              of Recovery Act funds; measured impact using same common measures; noted
              tremendous increase in participation, but hard to measure impact otherwise; and
              attributed the increase in participation due to Recovery Act funds and public
              awareness of the Recovery Act versus.
Puerto Rico   No additional analysis of Recovery Act funds but noted increased participation.
              Believed more services could be offered due to Recovery Act funds. One local board
              noted they served an additional 239 Adults and 202 Dislocated Worker participants.
Vermont       Noted an increased number of participants, which increased the number of
              participants placed in employment. But, specific measurements were not developed
              beyond serving more participants and specific goals for increasing participation were
              not developed. Understood the additional Recovery Act funding would increase
              enrollments; was able to provide participants with longer training allowing for greater
              opportunity for long-term careers; but found it difficult to determine if more
              participants were served due to availability of Recovery Act funds or due to more
              people in need of services.


                                                                              Recovery Act WIA
                                             13                    Report No. 18-14-002-03-390
                                       Prepared by Harper, Rains, Knight, & Company, P.A.
                                For U. S. Department of Labor – Office of Inspector General

State        Responses to impact of Recovery Act funds on participation
Washington   Did not analyze success of Recovery Act funds versus standard formula funds.
             Recovery Act funds allowed for an increase in the number of people that could take
             advantage of services offered by the programs. One local board identified serving
             289 Dislocated Workers and 194 Adult participants with Recovery Act funds.
             Restarted some programs at community colleges that had been cancelled due to
             lack of funding. One local board identified Dislocated Worker participants were at
             119 percent of the quarterly target and overall Dislocated Worker capacity increased
             423 percent over the PY 2007 baselines as of FY 2010.




                                                                            Recovery Act WIA
                                           14                    Report No. 18-14-002-03-390
                                           Prepared by Harper, Rains, Knight, & Company, P.A.
                                    For U. S. Department of Labor – Office of Inspector General

Exhibit 2: Responses to Application of the Provision to Give Priority of Service
State           Responses to application of the provision to give priority of service
Alaska          Provided guidance through policies and scope of work, and issued advisories on
                priority of service; strengthened the policies in 2009 to ensure prioritization guidelines
                were clear; and continued providing priority of service to customers, adding
                emphasis to the priority of service provision.
Arizona         Applied provision to the contract document and referred local board to TEGL 14-08.
                Priority of service is always applied and a very large percentage of the participants,
                nearly all, are low-income.
Illinois        Low-income participants greatly exceed the normal percentage (51 percent)
                required; Nearly all recipients who apply for the program are low-income and
                currently receiving some form of government assistance. Did not develop additional
                policies. No additional analysis was performed over Recovery Act funds with regard
                to low-income participants. All participants in the adult program were underemployed.
                During Recovery Act funding, the number of participants who applied exceeded the
                number of available spots/funds, so priority of service was applied the same.
Maine           Treated priority of service as an existing requirement of the regular WIA Adult
                program. No special instructions or provisions were added for Recovery Act funds.
                Priority of service is inherent in the WIA Adult program. Applied provision per normal
                policies and procedures and nothing was added nor removed due to the Recovery
                Act funding. In one local area only those meeting federal poverty guidelines were
                enrolled in the WIA Adult program.
Nebraska        No change in priority of service. Applied priority of service as stated in ETA’s
                guidance.
New Mexico      Emphasized priority of service. Included priority of service in grant documents to
                locals. Worked with workforce services to identify target populations, such as the
                long-term unemployed and those with a lower living standard equivalent. One LWIB
                used Recovery Act funds to primarily fund low-income participants, and used regular
                WIA Adult formula funds for participants that were not low-income.
Puerto Rico     Applied priority of service the same for Recovery Act funds; did not adjust any
                poverty level thresholds for Recovery Act priority of service. Guidance was provided
                by central office.
Vermont         Priority of Service is already an existing requirement of the WIA Adult program. If
                applicants are eligible for certain aid programs, they are automatically classified as
                “priority” placement eligible. Most applicants are eligible through public assistance, UI
                payments, or other programs. If the applicant exceeded the low-income requirement,
                the application was elevated for approval by the state DOL. No guidance was
                needed as the requirements were already in place. The program ran as usual. No
                change to low-income/assistance applicants, as the prioritization was already
                required by WIA and worked closely with other state programs to coordinate service
                to meet priority of service requirements.
Washington      Most applicants for the program were low-income. Priority of service had always
                been a requirement to implement the WIA Adult funds. Policy/procedures did not
                change; state already had in place a priority system of level 1, 2, or 3 participants
                with level 1 being the most in need. Local boards reported 70 percent to 76 percent


                                                                                  Recovery Act WIA
                                                15                     Report No. 18-14-002-03-390
                                 Prepared by Harper, Rains, Knight, & Company, P.A.
                          For U. S. Department of Labor – Office of Inspector General

State   Responses to application of the provision to give priority of service
        of Recovery Act recipients were level 1 participants.




                                                                     Recovery Act WIA
                                     16                   Report No. 18-14-002-03-390
                    Prepared by Harper, Rains, Knight, & Company, P.A.
             For U. S. Department of Labor – Office of Inspector General




Appendices




                                                     Recovery Act WIA
                       17                 Report No. 18-14-002-03-390
             Prepared by Harper, Rains, Knight, & Company, P.A.
      For U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Recovery Act WIA
                18                 Report No. 18-14-002-03-390
                                         Prepared by Harper, Rains, Knight, & Company, P.A.
                                  For U. S. Department of Labor – Office of Inspector General



                                                                               Appendix A
Objectives, Scope, Methodology, and Criteria

Objectives

The objectives of our audit of the Recovery Act Outcomes from WIA Training and
Services to Adults and Dislocated Workers were to determine:

   1. To what extent did states use additional WIA Adult and WIA Dislocated
       Worker formula funds to increase the percentage of recipients they served
       with direct training and supportive services?

   2. To what extent did states give priority of service to assistance recipients
       and low-income persons in the WIA Adult program, as required by the
       Recovery Act?

Scope

The audit period covered February 17, 2009, the inception date of the Recovery Act,
through September 30, 2011, and included participants in all 50 U.S. States, as well as
the District of Columbia and Puerto Rico as identified in 20 Code of Federal Regulations
(CFR) 660.300. The nine grantees selected were Alaska, Arizona, Illinois, Maine,
Nebraska, New Mexico, Puerto Rico, Vermont, and Washington.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

In planning and performing our audit, we considered ETA’s internal controls that were
relevant to our audit objectives. We confirmed our understanding of these controls
through interviews and reviews of policies and procedures. Our consideration of internal
controls relevant to our audit objectives would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
noncompliance may nevertheless occur and not be detected.

We conducted structured interviews with officials, who were responsible for the
administration of the WIA Recovery Act funds at the Employment and Training
Administration (ETA) National Office, as well as officials and staff at the State and Local
levels for each selected state and Local Workforce Investment Board (LWIB). We

                                                                          Recovery Act WIA
                                            19                 Report No. 18-14-002-03-390
                                              Prepared by Harper, Rains, Knight, & Company, P.A.
                                       For U. S. Department of Labor – Office of Inspector General


selected the states, LWIBs, and participants using a 3-stage cluster-sampling plan. The
sample resulted in 9 grantees, 34 LWIBS, and 490 Recovery Act coded participants for
audit. The 9 grantees selected were Alaska, Arizona, Illinois, Maine, Nebraska, New
Mexico, Puerto Rico, Vermont, and Washington. The 490 participants were selected
using individual state Management Information Systems (MIS) 22 where participants
were coded as receiving Recovery Act funds partially or fully and not from the
Workforce Investment Act Standard Record Data (WIASRD). WIASRD was specifically
designed to not allow identification of an individual participant. We used WIASRD for
program-wide statistical analysis while the state MIS systems were used for participant
level testing. We used the participant sample to validate that the data provided was
accurate through testing for the Recovery Act attributes.

We reviewed all 490 participant files for evidence of eligibility and direct training or
support services provided through Recovery Act funding, either partially or fully. To
verify participants were eligible for either the WIA Adult or the Dislocated Worker
programs, we reviewed participant files for documentation related to the age,
citizenship, receipt of public assistance, selective service registration for males born
after January 1, 1960, and employment status. Specific documentation reviewed
included copies of driver’s licenses, social security cards, birth certificates, selective
service registration print-outs, passports, and printouts from various public assistance
agencies. For participants in the Dislocated Worker program, we also reviewed
documentation from previous employers to determine the reason for employment
dislocation. This consisted of letters from employers stating an individual had been laid
off or terminated due to downsizing or facility closure.

Criteria

We used the following to perform the audit:

       •   Workforce Investment Act of 1998 (WIA) – P.L. 105-220
       •   TEGL 13-08, March 6, 2009
       •   TEGL 14-08, March 18, 2009
       •   TEGL 17-08, April 23, 2009
       •   TEGL 24-08, May 21, 2009
       •   TEGL 19-09, March 30, 2010
       •   TEGL 17-05, February 17, 2006
       •   GAO’s Oversight of the Recovery Act
       •   American Recovery and Reinvestment Act of 2009 (ARRA) – P.L. 111-5
       •   Government Auditing Standards 2011 Internet Version, Chapter 6-7
       •   DOL OIG’s Policies and Procedures Handbook, July 2009



22
     These systems were not audited.

                                                                               Recovery Act WIA
                                                 20                 Report No. 18-14-002-03-390
                                     Prepared by Harper, Rains, Knight, & Company, P.A.
                              For U. S. Department of Labor – Office of Inspector General




                                                                           Appendix B
Acronyms and Abbreviations

ARRA          American Recovery and Reinvestment Act of 2009

CFR           Code of Federal Regulations

CPA           Certified Public Accountant

DOL           Department of Labor

ETA           Employment and Training Administration

GAO           Government Accounting Office

LWIB          Local Workforce Investment Board

OIG           Office of Inspector General

OMB           Office of Management and Budget

P.A.          Professional Association

P.L.          Public Law

PY            Program Year

TANF          Temporary Assistance For Needy Families

TEGL          Training and Employment Guidance Letter

WIA           Workforce Investment Act of 1998

WIOA          Workforce Innovation Opportunity Act

WIASRD        Workforce Investment Act Standard Record Data




                                                                      Recovery Act WIA
                                         21                Report No. 18-14-002-03-390
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
